<html>
<title> - [H.A.S.C. No. 111-113]UNDERSTANDING CYBERSPACE AS A MEDIUM FOR RADICALIZATION AND COUNTER-RADICALIZATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-113]

 
                     UNDERSTANDING CYBERSPACE AS A
          MEDIUM FOR RADICALIZATION AND COUNTER-RADICALIZATION

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 16, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-698                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>  
  


    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Kevin Gates, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, December 16, 2009, Understanding Cyberspace as a 
  Medium for Radicalization and Counter-Radicalization...........     1

Appendix:

Wednesday, December 16, 2009.....................................    27
                              ----------                              

                      WEDNESDAY, DECEMBER 16, 2009
  UNDERSTANDING CYBERSPACE AS A MEDIUM FOR RADICALIZATION AND COUNTER-
                             RADICALIZATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Boucek, Dr. Christopher, Associate, Middle East Program, Carnegie 
  Endowment for International Peace..............................     5
Brachman, Dr. Jarret, Author, ``Global Jihadism: Theory and 
  Practice''.....................................................     2

                                APPENDIX

Prepared Statements:

    Boucek, Dr. Christopher......................................    46
    Brachman, Dr. Jarret.........................................    35
    Miller, Hon. Jeff............................................    33
    Smith, Hon. Adam.............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Smith....................................................    57


  UNDERSTANDING CYBERSPACE AS A MEDIUM FOR RADICALIZATION AND COUNTER-
                             RADICALIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                      Washington, DC, Wednesday, December 16, 2009.
    The subcommittee met, pursuant to call, at 2:17 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Adam Smith (chairman 
of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. We appreciate both Dr. Brachman and Dr. Boucek 
being with us today. And I think it is a very important topic. 
Several of us on the committee have been briefed a couple times 
about what is going on in cyberspace with regard to al Qa'ida, 
their message, and the efforts to radicalize the Muslim 
population.
    And it is a very, very extensive part of the battlefield 
that I think too few people on our side are aware of. Al Qa'ida 
and other likeminded violent extremist groups are on the 
Internet, aggressively recruiting and trying to radicalize 
people, and also spreading their message, spreading their 
violent, hateful message, basically focused on the West wanting 
to attack Islam and doing a number of things to spread that 
message falsely.
    And it is my belief that they have occupied that message 
space without a sufficient counter from us. The analogy that 
occurred to me is it is like being in a really, really close 
political campaign and only your opponent is on television. 
Anybody who has ever run for office knows how deadly that can 
be. Well, this is that problem spread all the way around the 
world.
    Al Qa'ida and likeminded groups are out there, spreading 
their message, being fairly effective at spreading it, and we 
are not there. We are letting them occupy a very critical space 
in the message battle, in the battle for ideas.
    What we want to hear about today is a little bit more about 
how they do that, but also, more importantly, what we are doing 
and what more we can be doing to counter it and become much 
more effective at doing counter-radicalization, spreading our 
message and undermining al Qa'ida's message on the Internet.
    And with that, I do have a full statement that I will 
submit for the record, but I will leave it at that, and I will 
turn it over to our ranking member, Mr. Miller, for any opening 
comments he might have.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 31.]

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. Thank you, Mr. Chairman. I associate myself 
with your remarks. I also have a statement to enter into the 
record. In view of time, I would like to go ahead and let's 
start this hearing.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 33.]
    Mr. Smith. Terrific. Thank you very much.
    We have Dr. Jarret Brachman, who is the author of ``Global 
Jihadism: Theory and Practice,'' with us. He has testified 
before this committee previously as an expert, I guess, on 
radical Islam, did some work up at West Point previously on 
that issue, and look forward to hearing his thoughts on this 
very important subject.
    Dr. Brachman.

 STATEMENT OF DR. JARRET BRACHMAN, AUTHOR, ``GLOBAL JIHADISM: 
                     THEORY AND PRACTICE''

    Dr. Brachman. Thank you, Mr. Chairman, Mr. Miller, 
distinguished members of the subcommittee. It is an honor and 
privilege to be here today.
    I would like to keep my thoughts very informal and just 
kind of chat about what I have been up to, I guess, vis-a-vis 
the jihadi use of the Internet. Two weeks ago, a guy who I 
don't know where he lived put a video, about a three-minute 
video, showing a scene from ``Lord of the Rings.'' Right, this 
is something that is very popular with Americans. I think he is 
an American, but I don't know.
    And the video showed--he subtitled. It was ``The Fellowship 
of the Ring,'' these guys, the good guys that he said were them 
and the bad guys he said was me. And the way this ended was the 
bad guy got his head chopped off. And he said, ``This is what 
happens to guys like Dr. Jarret Brachman.''
    So, you know, am I scared about this? No, because this guy 
is typical of something that I have been calling jihobbiests, 
right, this is the group of enthusiasts who use the Internet to 
outlet their anger and their frustration, to build social 
networks and gain some sort of identity and some sort of, you 
know, social meaning, who most of them will never go out and do 
anything operational, but it is the one or two out of these 
thousands, you know, or hundreds, that do.
    And so it is identifying, how do you know which one is 
going to become the next, you know, alleged Nidal Hasan or 
somebody who takes this to the next level, or get grabbed by 
somebody on YouTube and say, ``Hey, why don't you come over to 
Pakistan, come through the camps? We will get you, you know, 
fighting.'' And so this is something I have been struggling a 
lot with.
    Another quick anecdote, there is a--probably the most 
sophisticated pro-al Qa'ida journal in English has been 
released now. I think they are in their fourth iteration. It is 
called ``Jihad Recollections.'' It is produced openly by a guy 
who lives with his parents in Charlotte, North Carolina, and 
this is one of the most sophisticated journals, I say, because 
it shows the least amount of dissonance from the kinds of 
journals we are seeing in Arabic, right?
    So what has happened over the past few years is that the al 
Qa'ida support group, Americans and English-speakers, have 
caught up. They used to be way behind in terms of their 
ideological sophistication; now I think they are almost 
synonymous.
    And so this journal came out, and one of the authors was--
used the pen name Abu Abdullah as-Sayf, you know, a guy--again, 
we don't know who he is. He commented about all this 
ideological stuff. And on my Web site, I attacked him pretty 
vigorously on ideological fronts.
    And I also mentioned, you know, as an aside, that he sounds 
like the kind of guy who lives in his mommy's basement. Right, 
now this--I was just doing just to be funny. He sent me a 
letter back on--by way of my Web site, and--and out of all the 
attacks that I gave him on ideological, theological, religious, 
historical fronts, the only thing he keyed in on was the fact 
that I had attacked him for living in his parents' basement. He 
said, ``I am economically self-sufficient. I demand you publish 
a retraction on your Web site.''
    And so that was curious to me. After a doing a little bit 
more research, I found that this guy was using a T-shirt 
company online where you can post your own--you can make your 
own T-shirts and then sell them, and he was creating pro-al 
Qa'ida T-shirts, right? So he had about 30 that he had made.
    So this guy spends his time writing articles for pro-al 
Qa'ida, you know, journals in English and making pro-al Qa'ida 
T-shirts in English. And so to be funny, you know, I made a T-
shirt that said, ``Abu Abdullah as-Sayf Does Not Live in his 
Mommy's Basement,'' and I posted that.
    But I tell you all this because what I have been trying to 
do is poke these guys with sticks ideologically and through, 
you know, the media, because that is what knocks them on the 
defensive. We found this in 2007. Ayman al-Zawahiri came after 
some of the work that I had done, specifically--and at one time 
attacked us, saying, ``Well, this just proves the point.''
    Second, he said, ``Well, in fact, this Brachman guy is 
doing something that even my worst enemies aren't doing. He is 
using my own words against me without embellishing them and 
then he is publishing it broadly on the Internet, and this 
hurts.'' And then the third time, he did kind of a Dave 
Letterman jokefest about how many mistakes I had made in a one-
half-page biography of him, right?
    So the fact that these guys are--they have a sense of 
humor, first of all, which helps them for their strategic 
communication. When you are funny, it gets people's attention 
much more than if you are publishing 1,600-page serious, you 
know, tomes, which they also do, but they are reading 
everything that we write incessantly and using it against us. 
They call this methodology the power of truth.
    And they say that the power of truth isn't their truth; it 
is our truth. And the more that they can just simply turn the 
mirror back on us, the more resonance they get.
    And so what we have seen, I think, over the past few years 
is--well, I think the biggest trend is that al Qa'ida has 
transformed from--I argue, from a terrorist organization that 
uses the media into a media organization that uses terrorism, 
at least in the way they think about themselves. And they do 
this because it makes strategic sense. When you are--when you 
are embattled, when you are, you know, decentralized, you can 
use the media as a force multiplier, right?
    So if you can't go out and do operations, it takes the onus 
off you. You can continue to propel other people towards this. 
And so it is this curious interplay between people self-
radicalizing online, reaching back to, you know, the proverbial 
mother ship in Afghanistan, Pakistan, finding some operational, 
you know, coordination and support, going back to these camps, 
and then being redeployed.
    That is something we haven't quite cracked that code yet. 
But the fact is, these guys are very aggressive online. The 
English-speaking supporters of al Qa'ida now know and 
understand al Qa'ida just as well as the Arabic-speakers do. 
And you can basically--I mean, it is a buffet out there. You 
could get anything you want. If you are into these serious 
ideological texts, you can not only read them, but you can 
start writing them thanks to these journals.
    If you want to just watch, you know, people get their heads 
cut off and watch things blow up, there are tens of thousands 
of videos now online you can gain them at.
    One thing--one trend I have been noticing lately is that--I 
have spent a lot of time on these al Qa'ida forums, right, 
where people post, and they--it creates kind of a second world 
for them, where these guys live in these forums, they upload 
news stories trying to prove how bad we are and how good they 
are.
    But what I found is that, in places like YouTube, these 
social networking sites that I kind of used to pooh-pooh, 
suggesting, oh, they--they download these videos, but they have 
created an internal subculture within places like YouTube. And 
the more I spend time looking at this, I mean, this is--it is a 
separate world. The guys who are on YouTube I don't think are 
the same guys who are on these forums.
    So what has happened is, more people have more avenues to 
participate in more ways, on more levels of intellectual 
sophistication than ever before. So I think, over the past few 
years, we have actually--we have done less thinking and done 
less support for understanding our enemy, and they have done 
more. They have, you know, spread--they spread out the 
foundation.
    And so the problem--you know, I will stop here. I think the 
problem is, we think we have got it, and so now we have got to 
go kill and capture these guys. The problem is, for them, it is 
not something to get. It is the process. We are results-driven. 
We are ends-driven. We are timelines, benchmarks, empirical 
evidence. For them, it is--it will happen inshallah. You know, 
it is destined, so let's just all get out there and do.
    And so I think we need to take a different perspective and 
have a different logic. And that is where the power of academia 
and intellectuals and researchers, who may be doing work that 
doesn't seem directly applicable and may not immediately 
demonstrate success, you know, and advancement in the war, that 
is where I think it will help win the long-term strategic 
fight.
    Thank you.
    [The prepared statement of Dr. Brachman can be found in the 
Appendix on page 35.]
    Mr. Smith. If I may, before turning to Dr. Boucek, 
following up on that point, I think that is the critical piece 
of what this committee has tried to focus on. And certainly 
there is an operational aspect of our war against al Qa'ida, 
identifying who they are, actively disrupting their networks in 
a variety of different ways, but I think the broader battle 
that is more troubling right now than the operational war, is 
the battle for ideas, is the long-term message, and that really 
we are fighting an ideology, and they, too, they are espousing 
an ideology, but also fighting our ideology.
    And when we are looking, you know, out there, trying to 
stop people from becoming radicalized and put an end to this 
ideology, it is a message war, and it is--you know, it is 
media, it is whatever messages can be derived. And right now, 
we are, I think, considerably behind in fighting that battle 
and getting engaged in that long-term ideological message. And 
it differs from an election in a number of ways, but one of the 
biggest ways is there is no set date, as you said. This is an 
ongoing struggle. It is sort of more like, you know, I hate to 
say Pepsi versus Coke, but it is really--you know, it is a 
long, long-term branding issue for, you know, one brand to try 
and triumph over another. I think we need to start thinking 
more strategically about that.
    And I will ask a couple questions, let you comment on that 
after we get Dr. Boucek's testimony. He is an associate from 
the Middle East program at the Carnegie Endowment for 
International Peace.
    Dr. Boucek, please go ahead.

  STATEMENT OF DR. CHRISTOPHER BOUCEK, ASSOCIATE, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Boucek. Mr. Chairman, Mr. Miller, distinguished members 
of the subcommittee, I would like to thank you for the 
opportunity to be here today to speak about this very important 
topic. I think I would like to keep my remarks very informal 
and conversational.
    I would like to begin just by sort of putting, I think, the 
Internet in perspective. And I think it is important to keep in 
mind that the Internet is not a series of virtual training 
camps. I think it is probably best to think of the Internet as 
a system to propagate and perpetuate ideology and a means to 
link individuals and organizations or movements that may be 
very disparate, spread across large geographic distances, or 
even tangentially associated.
    And I think Jarret makes this great point that it spreads 
participation, and I think this is something that we need to 
key in on.
    Just as, you know, there are varied pathways by which 
people get into radicalization, I think there are also varied 
pathways by which people get out of radicalization. And it is 
becoming more and more, I think, accepted and there is more and 
more research showing that people do leave violent militant 
groups or terrorist organizations, and I think we need to 
understand this much better.
    It might be helpful, I think, to think about this as a 
scale of how people participate in radicalization, how people 
engage in violence, and also think about how people disengage 
from violence, and there is a scale.
    I think there is this common perception that people get 
interested in something, and then they get radicalized, and 
then they get recruited by an organization. And from my 
research and my experiences doing research in the Middle East, 
I think we can say it is a little bit backwards from that. 
People get interested in something, then are recruited by an 
organization who then radicalizes them.
    Or you may have no interest in religion. You may be a non-
practicing Muslim who gets recruited by an organization who is 
then radicalized. And I think this most recent example of the 
five youths from Virginia that are in Pakistan can go as to 
illustrate this somewhat.
    I think I would like to turn now to talk about what the 
Saudis do, in terms of Internet counter-radicalization, because 
I think this can be a very interesting case study. The Saudis 
claim that there are about 17,000 sites, 17,000 Web sites that 
propagate Islamist extremism or terrorist ideology. And we 
definitely see that there is a linkage between the Internet and 
the advent of the Internet in Saudi Arabia and the rise in 
violence, the most recent al Qa'ida campaign in 2003.
    And the Internet has become a repository for much of this 
information. Whereas this used to be available in hard copy, 
now it is available online. This has now shifted, as the 
authorities have cracked down on the Internet. People might 
meet online, but then they will meet face to face to hand off 
information. Most hard-core jihadis in Saudi Arabia are not 
recruited online. Most activity does not take place online.
    And to address this kind of disparity between people who 
are interested in going online looking for things, the Saudis 
have come up with this program called the Sakinah campaign. 
Sakinah means tranquility, the peacefulness you receive through 
association with God. This is a nongovernmental association 
that is supported by the Ministry of Interior, the Ministry of 
Islamic Affairs, and the Ministry of Education.
    And basically, this is composed of two aspects. One aspect 
of the campaign is scholars who go online to collect 
information, so they collect the books, the pamphlets, the 
videos to better understand the thinking and the ideology at 
work with extremists. Part of this is also infiltrating 
extremist Web sites to sow dissent and to work from the inside.
    The other half of the campaign is made up of religious 
scholars who go online to interact with people in chatrooms, so 
they identify problematic chatrooms. Scholars will go online to 
look for people that they can try to engage in dialogue. And 
similar to how other rehabilitation programs in Saudi Arabia 
work, religious scholars will then try to draw you out into 
explaining why you believe your religion justifies violence or 
why your beliefs are founded on an understanding of Islam.
    In presenting evidence to the contrary, they try to show 
people there is a different way than what they might be 
thinking. So this is basically saying, if you go online to look 
for questions, answers about religion and you listen to these 
guys who go off on the wrong track, if you listen to people who 
know, they will go off on this way.
    One of the really fascinating things about the Sakinah 
campaign is that they will then take the back-and-forth 
dialogue and publish it online so others can read this. So this 
might take place in a direct back and forth or kind of a series 
of posts, but there is a multiplying effect when they put this 
on their Web site for other people to read.
    Also on their Web site are different documents and studies, 
recantation videos, things like that that explain extremism and 
radicalization.
    The Saudis have done a number of other things that we can 
get into about criminalization or trying to control the 
issuance of problematic religious rulings, fatwas. But one of 
the fascinating things, I think, about this program is it has 
this international appeal. And there are people who interact 
with the Sakinah workers from throughout the Middle East, from 
throughout the West and the United States.
    A number of countries have expressed interest in this 
program, the Americans, the British, the Algerians, the 
Emirates, the Kuwaitis. I was in Saudi Arabia in October, and I 
was told that the Algerians and the Saudis had just concluded a 
memorandum to help them develop a similar-type program.
    There are other programs--you know, while not Internet-
based--that are radio-based throughout the Middle East. Tunisia 
has a program of radio stations that address kind of more 
moderate or less extreme versions of Islam. And I would be 
happy to answer more questions about this, and when we get into 
the back and forth.
    I think, you know, when we are kind of looking forward 
about ways to move forward, I think it is important to 
encourage local partners. And I think, you know, the United 
States has a lot of capabilities to help local partners come up 
with similar-type programs. Part of this is empowering local 
voices, and there are local voices in the region, you know, who 
will speak out against political violence.
    Now, for the American government, I am sure there are 
caveats with that in that these might not be the most moderate 
voices, the most moderate voices that you would want to promote 
on other issues. But I think, you know, looking forward, it is 
going to be important not only to follow some of the 
suggestions or recommendations that Dr. Brachman made, but I 
think it is important from a counter-messaging point--and I 
kind of am hesitant to use that word--but I think an important 
thing is to highlight the flaws in these arguments, and I think 
especially, when we are talking about an organization that is 
based on--a movement that is based on ideologies and 
grievances, it is important to engage on those issues.
    And I think this is a moral movement or what is viewed as a 
moral movement. And highlighting those moral flaws or those 
moral issues I think can be very powerful, and I think this is 
probably a good way to go forward.
    With that, I would like to say thank you again, and I look 
forward to your questions.
    [The prepared statement of Dr. Boucek can be found in the 
Appendix on page 46.]
    Mr. Smith. Thank you both very much. We will adhere to the 
five-minute rule. Only a few members here. Hopefully, we will 
get around more than one round, but in order to keep it 
structured, we will do that, five minutes, and that includes 
me.
    Two series of questions. I will start with one and see if I 
can get to the other one. And the first area is, you know, what 
are we doing organizationally to counter this message on the 
Internet? What is sort of the counter-message out there? And I 
understand this can come from a lot of different areas. You 
mentioned Saudi Arabia is, you know, actively involved in it, 
so it doesn't just have to be the United States government, you 
know, DOD [Department of Defense], State Department, whatever. 
There could be different sites. You, for instance, some of your 
Web sites.
    But how well are we doing? How involved are we? You know, 
focusing first on what the U.S. government is doing in, you 
know, actively looking at this stuff online, forgetting for the 
moment the quality of what we are doing. Are we engaged in 
trying to counter, in trying to get our own message out? I 
mean, one of the obvious approaches would be sort of to do what 
you have said the jihadists have done, which is take their 
words and use them against them, do the, you know, truth mirror 
ourselves.
    But how active are we? And what should we be doing that we 
are not, in terms of more readily following the Internet, 
getting our message out there, countering the message that is 
so harmful to us?
    Dr. Brachman, you can go first, if you want.
    Dr. Brachman. Thank you, sir. It is a complicated question. 
You know, anecdotally, I think that anything that the United 
States government has said or done, al Qa'ida will find a way 
to spin it against us. Where al Qa'ida seems to react most 
defensively and reactionary is actually against academics and 
research reports about them.
    You know, if you use--and we can get to the recent 
revisions by Ayman al-Zawahiri's recent mentor, he published, 
you know, a scholarly text where he went after Zawahiri pretty 
aggressively. And this--you know, I call it my barking dogs 
metric, right? How many of their side--their dogs are barking 
about something?
    In this case, Zawahiri not only mentioned it in two videos, 
but wrote a book to counter it. Abu Yahya al-Libi, the most 
important thinker, I think, within al Qa'ida published his own 
book, mentioned it in two separate videos. Abu Basir al-
Tartusi, all these other guys mentioned this, right?
    So however much they come out against something to me is an 
indicator of how vulnerable they feel about something and where 
they have--where they are most reactionary, again, is when we 
engage them on the ideas and the basis of their ideology.
    In terms of the programs, you know, one would assume that 
the United States government is doing everything from the overt 
to the classified level. I am familiar with some of those 
programs, but I have no ability to assess their impact. You 
know, the State Department did have one program where they 
tried to push America and how happy Muslims in the West were, 
and I think that was universally seen as an abject failure.
    So the thing about jihadis--and, more importantly, the 
fence-sitters, people who are--you know, they are always 
looking for conspiracy, and they are always looking for a way 
to indict something at the outset, to reject the premise, and 
so that is why research and academic scholarship, I think, 
comes off, because it is objective, and they say--they can 
engage it.
    There is a crazy admiration that they have or at least a 
sense of respect from one scholar to another. And I think, 
ironically, that is where we could make the most impact, and 
that is where we are funding the least, and that was the 
biggest lesson we learned during the Cold War, was that this is 
an intellectual fight. We have to fund the heck out of 
universities. Sovietology departments, you know, were 
established all over the country.
    And maybe they were studying, you know, czarist poetry from 
the, you know, 14th century, and it may not have seemed--but 
what it did was it created a new generation of grad students 
who became professionals who then could contribute to the----
    Mr. Smith. So rather than having the State Department have, 
you know, one of its departments focusing on the Web, you know, 
we would be better served to fund various different think-
tanks, different universities that study radical Islamic 
thought?
    Dr. Brachman. And publish on it.
    Mr. Smith. And publish on it----
    Dr. Brachman. Because we know that they are reading and 
they are reacting to it. They are forced to react to it. And 
when they are reacting to it, they are not innovating on the 
offensive, and that is an important point.
    I will turn it over to Chris.
    Mr. Smith. Please.
    Dr. Boucek. I think this is an excellent question. I think 
it is important to be engaged. On an argument based on ideas, 
it is important to be engaged on these issues of ideas, and I 
think it is--I am incredibly surprised that eight years after, 
you know, this conflict has begun, there is no centralized, 
systematized program or organizations to understand these ideas 
and to publish on this.
    And I think--and Jarret makes these great points that, you 
know, the--I think there is more willingness from the 
government or from the military to listen to academics or 
outsiders, but I think they engage--this is almost a one-way 
street, I think, where they are asking questions we need.
    And I think, instead, it would be helpful if there was a 
system to promote this scholarship that would help people 
better understand the context from which all of this comes, 
because I think that we are going to come up with the answers 
and the questions you don't know yet which to ask.
    I think the other thing--and I will say this really 
quickly--is that, you know, there is a spectrum of people on 
how they get engaged, and we are not looking for the 100 
percent hard-core. We are looking at the people who are--have 
yet to make up their minds.
    Mr. Smith. Great. Thank you very much.
    Mr. Miller.
    Mr. Miller. It is interesting you would say that the--about 
the State Department's activities in regards to putting things 
on the Internet, trying to talk about how good America is, and 
the State Department also flies imams to other countries to try 
to explain to them how great it is to be a Muslim in America, 
which I think also is probably an abject failure, as well, just 
a total waste of money.
    If you could rate on a scale of 1 to 10 in regards to 
cyberspace or the Internet, you know, where does it rank in, 
you know, radicalization? You know, is it an effective place 
for them to go to become radicalized? I mean, I know that is a 
pretty wide-open question, but what would you think?
    Dr. Brachman. So I will take the first part of the question 
first. In terms--the State Department did have one program that 
I thought was very innovative and I thought it wasn't funded 
well enough, which was a--it was a micro-level engagement, 
where we had State Department analysts, I think in Arabic, 
publishing as U.S. State Department onto some of these forums, 
taking on, you know, people one to one, saying, ``Well, 
actually, that is not what the United States government said, 
actually.'' And I think that is a much more effective, because 
it is seen as candid and honest. There is an authenticity issue 
here that seems to screw up a lot of our propaganda or, you 
know, our messaging, you know, propaganda from their side, 
messaging from our side.
    But in terms of the--to rate it, I would say that the 
Internet is not a sufficient--a solely sufficient place to 
radicalize somebody, but it is certainly a contributing factor, 
an exacerbating factor. So--and it is context-dependent. For 
some people, it would be a 10, that they absolutely needed the 
Internet to take that next step. But for other people, it just 
kind of reinforces that which they already know, and so it is 
case to case.
    Mr. Miller. Is it more of a meet-up place, more just of a 
place to make contact and then go from there?
    Dr. Brachman. For some cases. I mean, in my testimony, you 
know, what I found was that in some of these Americans who got 
radicalized, they were able to network and maintain 
communications thanks to the Internet. In other ways, I mean, 
the Internet was peripheral to--it was that they were going out 
and shooting, you know, doing paintball or lifting weights 
together, and it was the human touch that was necessary. So I 
think it is critical, but at the same time, it is not solely 
sufficient.
    Dr. Boucek. I think that is a really important point. I 
think the Internet does not replace that personal, social 
interaction that we see of how people bond together, how 
movements and organizations come together. I think the Internet 
plays a key part, though, in propagating this ideology.
    And as a consumer of this all the time, I think that is 
what you can become absorbed in. You know, programs to address 
the fallacies or the mistakes or the errors of understanding 
are important. I think those need to be funded.
    A lot of the stuff, you know, for obvious reasons, though, 
can't come from the American government. I mean, I think 
anything that comes from the American government is going to be 
doubted and, you know, questioned and argued against, and I 
think this needs to come probably other ways.
    And I think, you know, probably sending imams from the 
United States abroad maybe isn't the best use of taxpayer 
money, but I would think figuring out ways to take people in 
the region who have spoken out--and there are a number of 
ideologues and thinkers who have spoken out against violence, 
and figuring out ways to amplify their messages.
    You know, there is this material out there, these credible 
voices or alternative voices. We don't need to reinvent that 
wheel. We can figure out ways to propagate that and to promote 
it other ways.
    Mr. Smith. Thanks.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    And thank you both for your testimony. This is very 
interesting and informative. Any measures of success for the 
Saudi program that you have described?
    Dr. Boucek. I think getting any kind of metrics in Saudi 
Arabia can be extremely difficult. I mean, there are a number 
of reports and studies that have come out, you know, that would 
say--for instance, one came out and said 700, another came out 
and said 1,200 people have recanted their beliefs.
    I think it is difficult to get an accurate message. And I 
think, you know, there has been an awful lot of attention paid 
on other forms of rehabilitation in Saudi Arabia. This is a 
program that has not gotten enough attention, and I think there 
aren't people doing research on this, and it is something we 
should look into.
    Mr. Marshall. So you are enthusiastic about this as a 
possible model, but at this point, you can't really say how 
effective it----
    Dr. Boucek. Well, I mean, I think it is--first of all, I 
think it is early days yet, right, number one. I think, number 
two, any efforts to combat extremist ideology online should 
support it and encourage it, I would think, especially--we 
know, you know, what has come out of Saudi Arabia in the past.
    So to think that, you have got government organizations and 
religious scholars coming together to say, ``This is not how we 
want our religion to be represented,'' I think the Saudis 
understand, first and foremost, they are a target of all this, 
and I think, you know, this is directed at the security and 
stability of the state. You know, how this affects outside 
other countries is secondary.
    Mr. Marshall. You know, in your opening statement, you 
mentioned counter-messaging and immediately said, well, you 
weren't really anxious to use that term, and yet you have just 
said that it is a good idea for us to be funding, supporting 
efforts to counter these messages. So why not use the term 
counter-messaging? Why did you offer that as a hesitation?
    Dr. Boucek. Well, I have thought a lot about this. And I 
think counter-messaging implies that there is another narrative 
with which to advance. And I think doing that is going to 
generate skepticism and doubt. I don't think that is going to 
accomplish what it is that, you know, we want to do.
    Mr. Marshall. So you have in mind that the appropriate 
approach is to directly respond, ``No, you are wrong, because 
thus and such,'' as opposed to, ``Well, that may be, but there 
is actually a better deal over here''? Is that what you are 
essentially saying? The counter-message would be directing 
somebody to a better way.
    Dr. Boucek. I think from an American government point of 
view, I don't think you would want this to look like it had the 
fingerprints of the American military or the American 
government on it. I think what you would want to do is you want 
to figure out ways to----
    Mr. Marshall. You would like to mobilize kids in the United 
States to just spend some time on the Internet chatting with 
people about----
    Dr. Boucek. No, I wouldn't go that far. I think, you know, 
there has been a lot of work to identify, you know, individuals 
and publications and books, pamphlets, et cetera, written in 
Arabic, Urdu, lots of indigenous languages that are not getting 
promoted. And I think figuring out ways to get those online so 
more people read those instead of the other things would be a 
good way to start.
    Mr. Marshall. Yes, but you also focus on these chatrooms, 
and you are interested in interrupting the conversation with 
some thoughts or at least injecting some thoughts that might 
discourage people from heading in the direction of believing 
this stuff that is on there, you know, that sort of thing.
    And you did make reference a couple times to this idea that 
they are not new messages out there. There are some great 
messages from very accepted, well-known scholars. The question 
is, how do we get those messages in front of people? Is it 
worthwhile to consider having an organization of some sort? You 
know, obviously, funding would have to come from the United 
States. I doubt there is anybody else out there that would be 
doing the funding, but perhaps some indirect funding, as well, 
that has people who watch these chatrooms and, when a subject 
comes up, interjects, ``Oh, wait a minute. You obviously 
haven't read, you know, thus and such. Here, listen to this 
quote. Here's what Imam So-and-So or Dr. So-and-So, et cetera, 
said on this very subject.''
    Dr. Boucek. I think that is a great idea. I mean, I think, 
you know, when we are thinking about how to engage, I would 
think, you know, how people engage with violence or militancy, 
you know, it often tells you about how they are going to 
disengage from it. And I think you are not trying to reach the 
people who have already made up their minds. That is not going 
to be useful.
    I think what you want to do is you want to reach the people 
who are out there looking for answers and don't know how to 
find the right answers. You know, part of that is, you know, 
interrupting this process, as you pointed out, which I think is 
really key.
    The other part I would think is----
    Mr. Marshall. Because you did say that you thought that the 
State Department program that had just analysts one on one sort 
of responding to things that are being said on the Internet was 
effective.
    Dr. Boucek. I mean, I think I would like to see a multi-
tiered, multi-level approach, and I think that is important. 
Immediate response to some of this is key. I think also kind of 
pointing out the flaws and the errors in these arguments or 
whether the moral flaws, I think, are important.
    Mr. Marshall. I have got 10 seconds left in this first 
round, and so to both of you, real quickly, any idea how much 
money you think we ought to be putting behind this kind of 
effort? Do you have--has anybody put pen to paper with regard 
to that money?
    Dr. Brachman. I don't think it is a question of money. I 
think it is--I mean, look at what al Qa'ida has done with very 
little. I think it is a question about harnessing the right 
resources in the right ways, and I think that is--we haven't 
done that yet. And maybe I will try to interject some more 
thoughts on that here as we keep going.
    Mr. Marshall. All right.
    Mr. Smith. Yes, I think on that point, it is a matter of 
strategic planning. I think it is more a matter of we have got, 
you know, a lot of different pieces doing a lot of different 
things, but there is no sort of overarching coordination. There 
is a loose idea. ``Well, this kind of worked; this kind of 
didn't. We are trying this. There is no one''--again, I will 
come back to sort of a campaign analogy and, you know, a 
campaign that works, as someone who is watching, you know, you 
have got your TV. You have got your radio. You have got the 
content and the message. All that is out there, and you are 
watching on a day-in-and-day-out basis where to deploy your 
resources.
    I mean, the beauty of the Internet, as you mentioned, is it 
doesn't cost much. You know, you just need to know, are you 
missing something? Are there chat sites? Are there, you know, 
things out there that are going by you? And then to the extent 
that you have got that covered, what is the right message? I 
mean, you know, running your own office, you are also always 
worried about, okay, we have got someone on this, but what they 
just said is really unhelpful, so you want to make sure you 
have some messaging control and the right people in place to 
counter that message. But I think it is a matter of strategic 
planning.
    Mr. Marshall. Mr. Chairman.
    Mr. Smith. Yes, go ahead.
    Mr. Marshall. I certainly agree with that. And one of the 
reasons why al Qa'ida is able to do this with very little 
funding is--that is the same reason why they are able to do an 
awful lot of things with very little funding. They have got 
very motivated individuals who don't require much in order to 
get them to do the sorts of things that al Qa'ida would have 
them do, including spend time on the Internet and if we could--
--
    Mr. Smith. Plus, of course, sponging off their parents.
    Mr. Marshall. There you go. So, you know, living in--if we 
could find folks like that who were similarly motivated, then 
we wouldn't have to pay them. They would just do it. If we 
can't, then we are going to have to pay people, then the 
question comes up. How much time do you think would be 
involved, how sophisticated do the individuals who are doing 
this need to be? You know, it is that sort of analysis that, 
you know, assuming there is a master plan that does 
contemplate, we want people in these chatrooms ready to dump 
appropriate counter-ideology information, what are those kinds 
of people going to cost? They have got to be people who are 
pretty bright.
    Dr. Brachman. Well, sir, it sounded as if you had defined, 
you know, the typical grad student or junior academic when you 
were saying, you know, don't make a lot of money, motivated, 
spend a lot of time researching and publishing. And so I think 
there is--I mean, there is an army of us out there, but, you 
know, what the jihadis have done is they have created something 
between a salon, you know, the old French salons where you 
could sit around and muse about great thoughts, and a war room.
    And they have put these, you know, together and put them 
online. And those conversations are public and open, and there 
is a reason for that. It is problematic to--they structurally 
screen out people like us. So the moment they know that I am on 
their forums, they will block my user account, so I can't go in 
and respond openly like that.
    But we do know that, you know, when--when Chris publishes 
something, when I publish something, they read it, and then 
they post it to their site and they talk about it. I think 
something that would be very useful is if we replicated their 
approach, you know, in a very open, public way, where we 
brought some of the top, you know, thinkers in our field 
together, put them in a war room online, and let us have a 
conversation in a public way. I don't think it costs a lot of 
money. We need a vehicle.
    But, again, they are going to be reading that and reacting 
to it. And for once, we would be setting the agenda and setting 
the pace. Right now, in terms of--you know, as you all have 
said, I mean, it is a monopoly on the discourse. You know, we 
are forced to react to it, if and when we do.
    Mr. Smith. Thank you.
    Dr. Brachman. So we have got the resources.
    Mr. Smith. Thank you.
    Sorry. Sorry, Bill. Mr. Shuster.
    Mr. Shuster. Thank you.
    You had mentioned earlier in your testimony that to 
radicalize somebody, it is more hands-on. It doesn't just occur 
on the Internet. To stop somebody from being radicalized, I 
would imagine it is not as hands-on. Would that be accurate? I 
mean, we can use the Internet more to our advantage to stop 
that radicalization, that process?
    Dr. Boucek. I think what we see from other counter-
radicalization programs in other parts of the world, especially 
in the Middle East, is that it often is a personal interaction. 
And I think, you know, if you are tangentially interested in 
this stuff, maybe online, you know, might work.
    I think, you know, instead of maybe thinking about this as 
how people give up their beliefs, I think, you know, you want 
to get people to not be violent, right? And this might be more 
about behavior modification than it is about, you know, 
renunciation of beliefs.
    And I think what we see is people who leave militant groups 
or terrorist organizations don't necessarily stop believing 
what they believe in. You often leave for very personal 
reasons. You know, often you become disillusioned with a 
movement or organization. You have personal reasons for 
stepping away from active participation in violence.
    You might still be a supporter or a fundraiser or, you 
know, an encourager, but that is different. That is why I 
think--this might be kind of an academic argument, but I think 
if we look at this as a spectrum of how you engage and how you 
disengage, that might be more helpful in kind of coming up with 
solutions.
    Mr. Shuster. Right. And some of those other countries in 
the world--somebody briefly mentioned or talked a little bit 
about Saudi Arabia, the other--Egypt, some of the countries in 
Southeast Asia, do they have programs that have been successful 
or failures? I mean, what is out there that we can learn from?
    Dr. Boucek. Of the Internet programs or of the kind of 
prison or other kind of personal programs?
    Mr. Shuster. Personal programs, either/or, you know, what 
is out there that has been successful that we should be looking 
at and studying?
    Dr. Boucek. Well, I think you see these rehabilitation 
programs spreading. Just about every national counterterrorism 
strategy has a disengagement element in it some way or another. 
Throughout North Africa, you see these programs, Libya, Egypt, 
Saudi Arabia. The Yemenis tried to do something. Kuwait is 
going to start doing something like this, Jordan, Syria. 
Southeast Asia, Singapore, Malaysia, Thailand, Bangladesh, I 
mean, these are all over, and not just in the Muslim world. 
There are also programs to disengage right-wing neo-Nazi youth 
gangs in Scandinavia or, you know, leftist guerillas in Latin 
America.
    I mean, I think there are things that you can learn from 
them. And a lot of this is about replacing someone's social 
network with one that is more conducive to them not re-
offending.
    Mr. Shuster. Well, who has--I mean, is there a country out 
there that we can look to and say they have had success, 
moderate success? Because, obviously, we have talked about a 
couple of our programs that haven't worked.
    Dr. Boucek. In terms of the face-to-face disengagement, I 
mean, the Saudis have been doing this the longest. It is the 
best funded. It has put through the most number of people, 
including people who have been violent. So Singapore often gets 
talked about as a very successful program, which it is, but it 
has dealt with, you know, 60 people, of which probably less 
than 5 are free and clear, none of whom have actively engaged 
in violence yet. This is all preemptive.
    So, you know, whether you like it or not, Saudi Arabia has 
become a de facto model for other countries. It is, you know, a 
very specific program to Saudi Arabia, but the Libyans just 
tried to do something with the Islamic Fighting Group to 
disengage these guys. The Egyptians did this with the Islamic 
Group to disengage them.
    So I think, you know, there are things we can look at, and 
this is clearly an area that needs more research. There is so 
much work done on radicalization and very little done on de-
radicalization, disengagement.
    Mr. Shuster. Right. And the United States, I think, we just 
saw a case where five Americans traveled to Pakistan or they 
were arrested there. How great is the threat here, in your 
view, in America? And I see Great Britain seems to be a growing 
threat. In the United States we obviously have had some, but, 
you know, what is your view here in the United States as to the 
ability to radicalize over the Internet?
    Dr. Brachman. I think that is a great question. I think we 
have always sat about five years behind the U.K.'s experience 
and so, you know, had Najibullah Zazi actually pulled off what 
he allegedly was trying to do, you know, it would have looked a 
lot like 7/7, the attacks of 2005, attacks in London.
    And so I think we are--as I said before, I think more 
people now have more access to more radical ideological stuff 
than ever before in more places, in more forums. And they are a 
lot smarter about how they do it.
    So I think, again, we have gone the wrong direction here in 
the United States. And I don't want to sound like an alarmist 
or whatever, but if you have more people who are thinking more 
bad thoughts, then it is more likely that some of them are 
going to actually do something about that, and I think that is 
what 2009--as we continue to uncover these plots.
    And it is hard, because the indictments and the complaints 
that are released don't always tell you if there is a jihadist 
motivation or if it is personal or it is some combination of 
the two. Again, Nidal Hasan, not quite sure. We know that he 
was having these interactions with this--this American Yemeni 
sheikh, Anwar al-Awlaki. We don't know the content of those. 
They were dismissed as innocuous.
    But the problem is, what if he was talking about a concept, 
say, like al wala' wal bara', right, which is not a concept 
that most of us in this room know, but if you do know it, then 
you know it is the core adoption of al Qa'ida, right? So you 
see it, and you say, ``That is an esoteric religious concept. 
It must not be too bad.''
    Well, actually, yes. It means you are either with us or 
against us, so to speak, and it is the premise of everything al 
Qa'ida is founded on. So we need to get smarter, I think, about 
what is problematic, and we need to get more granular in terms 
of knowing threats when we see them and, importantly, knowing 
threats--knowing what aren't threats when we see them, too.
    But I think it is a bad situation we are in right now.
    Mr. Shuster. Thank you very much.
    Mr. Smith. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    To follow up on a Jim Marshall question, the war room that 
you were proposing, Dr. Brachman, how would you make sure that 
enough eyeballs visited that work room, war room?
    Dr. Brachman. Well, they are already visiting us 
separately, and I think you bring us, you know, us, whatever, 
the people who do this for a living--and I say us, because 
there are very few of us, unfortunately. And I think over the 
past few years, the field has shrunk, not gotten bigger.
    Mr. Smith. Why would that be? Sorry to interrupt, but why--
it seems like a fairly hot topic at the moment. Why would it 
be----
    Dr. Brachman. Yes, it is baffling to me.
    Mr. Smith. Okay.
    Dr. Brachman. I can't figure it out.
    Mr. Smith. I was looking for that keen academic answer that 
through it you could tell us why, but okay.
    Dr. Brachman. And, you know, maybe Chris has some thoughts. 
I think some of them have gone on the inside and stopped 
publishing openly. Others have taken other opportunities. But 
we are not repopulating the field with grad students, again, 
because there aren't departments dedicated to the study of al 
Qa'ida strategy, because academia still is very distant. The 
legacy of Vietnam, you know, makes them hesitant to engage with 
CIA [Central Intelligence Agency] or DOD in an overt way.
    And, you know, I was told when I left to go do a fellowship 
at the CIA that I would be blacklisted from most universities, 
in terms of a faculty position. That is kind of just the sense 
that one gets, and it is not--you know, these are----
    Mr. Smith. So you do know why?
    Dr. Brachman. Maybe, so----
    Mr. Smith. Not as baffled as you appear.
    Dr. Brachman. There is a cultural disconnect, I think, 
between that. But I think that because the content would be 
based in primary source analysis of the adversary's message, we 
know the adversary, you know, to use that speak, will be there 
and try to see what it is we know about them and then try to 
respond to it.
    And, again, the more that we force them to react to us, the 
less that they are thinking great thoughts. And, you know, case 
in point, you know, Zawahiri--every time, you know, his mentor 
says something, he is forced to--he just, you know, is neurotic 
about responding. And these guys are all like that.
    And so they want to make sure they don't miss out on what 
arguments are being made against them, and they need to make 
sure that they have a better argument. I think that is a very 
important insight that we haven't understood and leveraged to 
our advantage.
    Mr. Cooper. I think your theory seems to be, if we build 
it, they will come, and they are sufficiently neurotic that 
they will always respond, and this won't be dismissed as some 
sort of lame Western, you know, no disparaging toward the Voice 
of America, but, you know, kind of a boring Western 
programming?
    Dr. Brachman. That is a fair assessment of what I am 
saying, yes, sir.
    Mr. Cooper. Help me understand why so few Muslim clerics 
denounce Muslim-on-Muslim violence. Why is there no more talk 
about that or--you know, because it is a pretty hierarchical 
religion, and there are a lot of serious and senior religious 
figures. There are many sources of authority, universities and 
mosques, but yet it seems to be almost a code of silence, 
whereas, you know, a Danish cartoon will spark riots halfway 
around the world, and other seemingly minor things, like a 
Swiss vote on architecture codes, and yet, you know, there can 
be market bombing in which 150 Muslims are killed by Muslims, 
and there is almost no response.
    Dr. Boucek. I think that is a great question. I am not sure 
that I have a very satisfactory answer for you. I think in 
part----
    Mr. Cooper. Are the Muslim clerics not online or----
    Dr. Boucek. Well, I mean, I think there are more and more 
of them who are getting online, but I think, you know, at the 
same time, I don't think--you know, the Christian religious 
leaders always speak out against all violence, either. So, I 
mean, I think in recent years, we see more and more Muslim 
scholars or sheikhs coming out to speak out against this about 
why this is wrong.
    I think some of these other issues--you know, if it is 
cartoons or the minaret issue in Switzerland, I think feed into 
other grievances, which may not necessarily always have to do 
with religion. I think, you know, a lot of this is other ways 
to release tension within society, you know, and I think there 
are a lot of problems in the Arab world, in the Muslim world, 
and I think these things aren't always directly tied to 
religion.
    I think, you know, over the last couple of years, we have 
seen a number of scholars who have come out and said, you know, 
violence is not acceptable. This is, you know, destroying--the 
idea behind this movement--I think, you know, Dr. Brachman can 
probably speak to this better than I can, but I think it is 
something that is happening kind of slowly happening, I think.
    So I am sorry that that is not probably the comprehensive 
answer you would like.
    Mr. Cooper. I appreciate your insight. And when Tom 
Friedman wrote his column today on the virtual Afghanistan, I 
thought that made this hearing topic even more interesting, 
because as a recruiting device, you know, if they are able to 
attract U.S. citizens, this is astonishing, but it seems to be 
happening more and more.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you. I want to follow up on sort of what 
works in terms of the U.S. government activity, because I think 
it would be a mistake to look at it and say, ``Well, obviously, 
you know, U.S. government is not credible with our target 
audience here, so therefore we should, you know, be very 
distant and keep our hands off.'' I think it is true that the 
U.S. government is not credible with our target audience. But I 
think even within that lack of credibility, there are still 
things that we can do, and I think you have given some 
insights, you know, just openly engaging in the discussion, 
countering the arguments that are out there, even if you have a 
little bit of a bias, your argument still has weight.
    I think it is also fascinating--and I understand why 
Zawahiri and all these people would want to respond--you know, 
we all intellectually, I think, have that--you know, even if it 
is--even if it is someone who we cannot stand, who we do not 
respect, if they say something that makes us look bad, you just 
can't help yourself sometimes if you are at all--if you 
consider yourself to be at all intellectual, to dive in and go, 
``That is a load of crap, and let me tell you why.'' So I do 
think that that is an important insight.
    And so I think, in terms of how we put this together, I 
think the United States government can, in fact, play a very 
effective role, which we are not playing at the moment, in the 
online competition that we are talking about. We have got to be 
smart about it. Not everything we do works, clearly, and we 
have got to learn some of the lessons you have talked about 
today, but we definitely have to be more engaged and more 
organized than we are right now.
    Towards that end, two questions about specific things that 
we have tried. One is a follow-up on--you talked about the 
State Department effort to basically--you know, I have this 
cartoonish image in my mind of happy Muslims in the United 
States going to Disneyland and so forth, and, ``See, it is all 
good.''
    I am a little more curious as to why that didn't work. I 
can kind of guess, because I think what would appeal to, you 
know, Muslims outside of the U.S., you know, sort of a, ``Look, 
they are all making a lot of money. They are doing good.'' It 
is not a materialistic approach. And so if you are presenting 
it, you know, Muslims are great and fine, because look at all 
the things they have and how--I mean, that is really--that 
would have worked against the Soviet Union, not going to work 
in this context.
    On the other hand, if you were presenting a message that 
said, you know, you are free to practice your religion, and you 
showed Muslims sort of living as Muslims in the West freely and 
openly, adhering to their religion, I could see that being more 
effective.
    So I am curious on that piece. Hit that, and then I have 
got a question about a Department of Defense program called 
Minerva that is trying to fund some academic research, as well, 
but try that first one, in terms of why exactly it didn't work, 
what was wrong with the message.
    Dr. Brachman. Sir, I will take a real quick shot at that. 
So I think, for the target demographic, those people who have 
bought in this, maybe not the militant side of it, but the 
ideological, ultra-conservatism, they are already--if you are a 
Muslim, you cannot live freely in the West. They have already 
subscribed to that belief, and there is very little you can do 
to change that. The West is inherently restrictive on your 
ability to freely practice your religion, and it continuously 
tempts you.
    And, you know, maybe Chris can talk more about that, but so 
I think it just--the argument fails on its premise. You can't 
convince them of that argument. And, plus, when you have 
military forces in two Islamic countries, it doesn't matter. 
Everything that you say about how great life is, it is 
irrelevant.
    Dr. Boucek. I think a lot of this has to do with 
perceptions. I think, you know, you probably don't need to 
convince people that freedom or democracy or affluence or these 
points that you raise are good ideas. I think they want to know 
why it doesn't apply to them.
    And I think a lot of the grievances that get identified in 
the Muslim world have to do with policies. You know, I think, 
you know, when those programs are going on, how many people 
were being, you know, harassed at--at TSA checkpoints? Or how 
many people weren't getting visas? There are students who are 
coming here to study, things that we should be encouraging----
    Mr. Smith. We are all being harassed at TSA checkpoints.
    Dr. Boucek. Right, but, I mean, I think this--I mean, every 
time you go to the Muslim world, somebody will tell you--every 
time I go to Saudi Arabia, ``I am not coming back to the United 
States, because I missed my flight, and my kids were 
embarrassed, and my wife had to do whatever.'' So, I mean, I 
think this is part of it.
    I think, you know, it is probably unpopular to talk about 
the policies that feed into these grievances.
    Mr. Smith. No, I think it is very important.
    Dr. Boucek. I think if we can engage on some of those 
issues and say why this is going on, why these policies happen, 
and to correct those misunderstandings, that is going to be 
key.
    Mr. Smith. Could you talk just briefly about this 
Department of Defense program called the Minerva Initiative, 
which was focused on sort of growing, you know, the academic 
and intellectuals, just as you have been talking about. Has 
that been effective or not?
    Dr. Brachman. So my response to Minerva is it did attempt 
to address--I quote one of the foremost experts on Sovietology 
and the rise of the intellectual discipline of Sovietology in 
the United States in my testimony, and I had the chance to talk 
with him a little bit about this.
    The problem with Minerva is that it funded the same 
academics who were already being funded by the U.S. government, 
whereas what we did in the Cold War was we expanded it. We had 
programs that brought in hundreds, if not thousands of grad 
students and academics into the fold. This Minerva identified a 
very small group of people who were already on the--you know, 
on the dime, I guess, for the government and just reinforced 
that. It didn't create a new generation of academics and 
scholars across discipline in a way that is robust. I think it 
just was more of the same.
    I think it is important, but it didn't accomplish the 
fundamental revolution that people hoped it would.
    Mr. Smith. The most--go ahead. Sorry.
    Dr. Boucek. Excuse me. I was just going to add, I think the 
idea behind Minerva is great, right, to enhance, you know, more 
academic research. Some of the projects that were funded 
personally I am really surprised at. Why there is a program to 
fund, you know, Baathist document exploitation, I don't quite 
understand. I don't know what that is going to do down the 
road. I don't think there are too many more Baathist regimes 
that we are going to have to deal with in the future, right? I 
mean, Syria aside.
    But I think there are other programs that probably should 
have gotten the money. I can understand focusing on the Chinese 
military or some of these other things, but maybe these weren't 
the best issues probably to--for the Department of Defense to 
focus its resources on.
    Mr. Smith. I also think we should look into very closely 
the issue that the academic institutions in our country are now 
so distant from the DOD and the CIA that there is that problem 
sort of melding the two, and they have been forced--I know we 
had this when we were trying to, you know, do the human terrain 
teams, you know, part of the problem was, we were going after, 
you know, archeologists, sociologists, people like that. And in 
the academic world, there were quite a few who chose not to 
participate because of the perception of participating in part 
of, you know, Americans', you know, militant policies.
    I have gone over time. I want to get to Mr. Marshall, if he 
has anything more.
    Mr. Marshall. Thank you, Mr. Chairman.
    You know, on the one hand, you principally, as our 
witnesses, have been talking about intercepting budding 
jihadists who are on the Internet sort of looking for guidance 
and being there at the right time to interject the right 
observation. You could do it a number of different ways. If you 
seem like an open and honest, one-on-one kind of, ``Hey, that 
is not the way things work. This is how I think it works,'' or 
the idea was tossed out--this has all been written about in the 
past, so you have got the right kind of people there who can 
just sort of interject, the great quotes, the great, you know, 
passages, et cetera.
    So that is intercepting the budding jihadists. And then, 
Dr. Brachman, you have this concept in mind that perhaps a war 
room, properly funded, staffed, could engage leadership, 
militant jihadist leadership in such a way that it is 
distractive. It is spending a bunch of its time responding to 
jabs that are poking holes in ideology as opposed to spending a 
bunch of its time recruiting, planning, executing, those sorts 
of things, attacks.
    In both instances--Jim, following up on my question, how 
you are going to do this, you said war room. Well, how are you 
going to get people to come to the war room? Compel them to do 
so? Send out a worldwide edict, ``You must come here and pay 
attention to what we are doing on this little Web site 
somewhere''?
    It occurs to me that Al Jazeera is missing a huge 
opportunity to grow its market share. I don't know why Al 
Jazeera doesn't organize a chatroom and organize it in a very 
effective way so that if you go to that chatroom, you can--if 
you are a novice, get to the right place where you can see and 
engage in conversations that are handled by Al Jazeera. If you 
are an expert, you can go find what you want to be chatting 
about or find information about.
    And I am no Internet expert. I am, you know, all thumbs, in 
effect, when it comes to that sort of thing. I don't chat, at 
least on the Internet. And--but, you know, it is--you see some 
places, the New York Times, gosh, you know, an article comes 
out. If it is at all interesting, within just a few days, there 
have been 500 or 600 bloggers who have commented on the 
article. And from time to time, I have found it very helpful to 
read the article and then read what people are saying about the 
article.
    So some credible entity actually--and credible in the Arab 
world, not us, and in the Arab world, I think Al Jazeera is 
interested in not only market share, but also credibility. It 
is going to want to manage something like that in a credible 
way. And I also think Al Jazeera might be a place that a lot of 
people go to. If they understood that was the go-to place to 
have chats about stuff like this, then you wouldn't get cut off 
when you wanted to come on to the Al Jazeera site and advance 
your ideas or the war room wouldn't or the individuals 
wouldn't. What do you guys think?
    Dr. Boucek. Two quick points. I think the point about 
intercepting kind of budding jihadis, it is a great point. And 
I think it is probably useful to think about this, in addition 
to taking away a negative, we also need to give people a 
positive, right? There needs to be--for those people who are 
religiously inclined, there has to be a positive way to 
exercise their faith, and that is something that we see across 
this engagement program.
    So I think that is kind of key. I think this idea of a--if 
Al Jazeera----
    Mr. Marshall. If I could quickly interrupt, the war room 
concept Dr. Brachman's advocating really doesn't do that, what 
you are describing, and that is more of the State Department 
one-on-one kind of stuff. It is a very different----
    Dr. Boucek. I love this idea of the Al Jazeera chatroom 
point, and I think--I am a big fan of these kind of 
experiential learning things, and I think a great way would be 
to bring editors and journalists and reporters from the Arab 
world here to spend time, you know, with the New York Times 
comment section, right? Once you learn and you see how this 
works, when you go back, you are going to take this whole 
different perspective.
    I think Al Jazeera is one of the best things to happen to 
Arab media, and we need to encourage more professionalism. 
Through professional exchanges, that would be a great way to do 
that, I think.
    Dr. Brachman. Sir, I will just--kind of staying on the war 
room idea, last year, I wrote a 10-page open letter to Ayman 
al-Zawahiri. I published it in Arabic and English on a number 
of forums. Most of the forums immediately erased it and told me 
that I was a Zionist crusader dog, and that I would burn in 
hell for all of eternity. In some of the forums, however, they 
took me on.
    Mr. Marshall. And your view of that prediction?
    Dr. Brachman. No comment. So--but in some of the other 
forums, they went after me, and, in fact, I got a nice 
compliment from one of the hardest core guys in the Arabic 
forum. Somebody asked, ``Should Zawahiri respond to me?'' And 
he said, ``Well, this guy seems to know Zawahiri and our 
ideology as well or better than we know ourselves. So he 
can't--he will have to respond to it, in some way.''
    And I think that is the premise of the war room, that we 
don't have to mandate people come. They will naturally 
gravitate. They already are doing it, because we are saying 
things that show that we know them as well as they know 
themselves, and I think that is something we haven't 
established yet that will be incredibly enticing to them, to 
those on the fence, and to the broader community, that we are 
no dummies at this. We can take them on, on their own terrain 
as well or better than they can to us.
    Mr. Smith. We have a quorum call at the moment, 10 minutes 
left to go on that, and then I guess there are a few minutes 
left in the debate on the issue. I don't feel any particular--
well, let's not say this into an open mike.
    It is possible that, you know, the conversation here will 
be more important than registering our presence on the floor, 
so we will keep going, but Members who want to leave and go do 
that, I understand. And I don't have too much more.
    I wanted to see, Jim, did you--sorry, okay. We probably 
will be able to make it then.
    I guess, you know, the biggest thing is I think this 
discussion has been very, very helpful, and I think it is 
great, and I think it is sort of like we are looking at a big 
problem, trying to figure out what works, what doesn't work, 
coming up with some good ideas, you know, learning from people 
who have had experience with different sets of ideas of things 
that have worked in different forums.
    I think my greatest concern in this whole process is that 
this isn't going on at the level of the United States 
government that it needs to be going on. There needs to be, 
whether it is, you know, NSC [National Security Council], State 
Department, you know, some group of folks pulled together on a 
regular basis who are focused on this.
    I think in much the same way, you know, post-9/11, even 
pre-
9/11, for that matter, we were very focused on bin Laden and al 
Qa'ida. Now, we didn't know as much about them as we do now and 
weren't as committed to it, certainly, as we were after 9/11, 
you know, but there is a group of people right now, every 
single day, all day long, who are thinking about where the top 
al Qa'ida targets are, what they are up to, and how we can stop 
them.
    And they are getting ideas and plans and modifying them and 
bringing more key players into that conversation. The same is 
not happening on the messaging front, on the ideological 
struggle. And you guys are great, but there are only two of 
you, and you don't have the full resources in the United States 
government behind you, and so we are going to, on this 
committee, I believe, look for ways to try to push that within 
the administration to say, you know, we need that war room that 
you are talking about, however you want to compose it and 
whatever ideas come out of it.
    I am sure the war room will come up with some bad ideas. 
They always do. But you will learn from it, you will get 
better, you will figure out what messaging works, what forums 
you have to be on, some of the ideas that were raised by our 
colleagues here I think will prove helpful, and that is what I 
really think we need to do.
    I don't have any further questions. Did either of you have 
any good of the order closing comments?
    Dr. Brachman. I will just make one quick comment. In 2007, 
September, Abu Yahya al-Libi, a guy who I call the next bin 
Laden, he is a name who is not very familiar to people, 
although he is, I think, the most important, thoughtful--he 
makes bin Laden look like, you know, a kindergartener, I think, 
in terms of his thinking intellectually.
    He was asked in an open interview with an al Qa'ida media 
outlet how the United States could defeat al Qa'ida 
ideologically. And he says, Well, it is easy. I have got a six-
point strategy. And the interviewer said, Well, you probably 
don't want to give the Americans a six-point strategy for how 
to defeat us, right?
    And he said, no, no, no, it is okay. They are not smart 
enough to implement it. They are kind of doing these things on 
the margins, but if I tell them, A, they can't do it because 
they are inept and they are stupid, and, second, because I am 
laying it out, I am inoculating our movement from their ability 
to do this, so it doesn't matter anyways. It becomes 
irrelevant.
    And he goes through each of these points, what he says that 
we could do, and a lot of the things we have raised here today, 
but they are happening in very ad hoc, one-off kind of way. So, 
I mean, this is the intellectual bravado that al Qa'ida feels 
that they have, that they can give us a strategy, and it is 
probably the most sophisticated strategy I have seen on how to 
defeat al Qa'ida ideologically.
    Mr. Marshall. Would you mind maybe sharing that in writing 
with us? We would like to know it, and we may not be able to 
implement it, it might not be effective, but----
    Dr. Brachman. Right. So, you know, the first point he says 
is promoting guys who used to be really senior in al Qa'ida who 
have then renounced, and so these are people like Dr. Fadl, 
Zawahiri's old mentor in Egypt. When he comes out and writes a 
book, it really hurts them. And he says, it really hurts us 
when things like this occur.
    Second is exploiting our mistakes. So al Qa'ida has got a 
history of shooting itself, you know, in the foot. And simply 
pointing that out, he says, continuously doing this, beating 
that drum hurts.
    Mr. Smith. Well, for instance, mistakes include, you know, 
bombing the wedding party in Jordan.
    Dr. Brachman. Exactly.
    Mr. Smith. You know, some of the stuff Zarqawi was doing in 
Iraq. Yes, and that is something that, you know, I think we 
always make the mistake--you know, it is sort of like, there is 
a great argument we have, but after a while, we get tired of 
it. I can always tell a really good campaign when they just 
keep pounding and pounding and pounding on the same point to 
the point where you are sick of it, but if it is a really great 
argument for your side, never let it go.
    Dr. Brachman. Right. Al Qa'ida kills Muslims.
    Mr. Smith. Exactly, and the specific examples that are most 
heinous.
    Dr. Brachman. Right. So that is number two.
    Number three, as he says, any time that a mainstream 
Islamic cleric who is respected issues a fatwa or religious 
ruling against us, it hurts us. Yousuf al-Qaradawi is probably 
one of the most popular guys who has been very actively against 
al Qa'ida. That is very problematic for them. So the more 
mainstream Muslims come out against them, that hurts.
    Dividing and conquering their movement, turning Muslim 
Brotherhood against al Qa'ida, against, you know, Jundallah, 
against showing--because any insurgency needs to bleed into the 
populace, separate--or, you know, erase those distinctions. And 
so the more we can reinsert those shades of gray into the 
conversation, the harder it is for them to accomplish what they 
want to accomplish. That is four.
    Number five is neutralizing the guiding lights of al 
Qa'ida. These are the top clerics. Any time you can take these 
clerics down, shut them up, by whatever means one thinks is 
appropriate, that really, really hurts them, because these guys 
have a disproportionate impact to advance the movement.
    And, finally, he says, identify superficial disputes and 
make those emblematic of methodological flaws within al Qa'ida. 
And this is where the work that academics are doing, I think, 
is important.
    So he is not saying make anything up or fabricate anything. 
He says it is all out there; it is just it needs to be turned 
against us in the right way by the right people.
    Mr. Marshall. Mr. Chairman. It is kind of interesting, the 
six-part plan has nothing to do with most of the things that we 
are doing.
    Mr. Smith. Yes. Yes. No, I think that is absolutely a good 
point to close on. Actually, I should let Dr. Boucek, if you 
have any----
    Dr. Boucek. I would just say one point, which I think is--
you highlighted this really key point about highlighting the 
errors in this organization or the mistakes that get made, 
right? And I think Jarret talked about this notion of loyalty 
and disavowal, which is really important.
    Key, also, though is this idea of, it is an individual's 
responsibility to do good, not only to stop wrong, but to do 
good. And highlighting all the times when that doesn't happen, 
every time that, you know, a mentally disabled person is 
recruited to be a suicide bomber, every time civilians are 
killed, I think if you look at what the Saudis did, they drove 
a wedge between the population and extremists, to say they are 
not acting in your interests, and there are so many examples 
that you can highlight to say, ``Why do you want these guys 
hanging out in your neighborhood? Why do you want them in your 
mosque? Why do you want your son to associate them, with them, 
when they are clearly engaged in immoral activity?''
    This is an organization, idea, a movement based on 
improving morality, right? And we are totally not engaged in 
that at all. So with that, I will conclude. Thank you.
    Mr. Smith. Thank you. This has been fascinating and very 
helpful, and we certainly plan to stay in touch with both of 
you. Appreciate you taking the time.
    And with that, we are adjourned.
    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           December 16, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 16, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7698.001
    
    [GRAPHIC] [TIFF OMITTED] T7698.002
    
    [GRAPHIC] [TIFF OMITTED] T7698.003
    
    [GRAPHIC] [TIFF OMITTED] T7698.004
    
    [GRAPHIC] [TIFF OMITTED] T7698.005
    
    [GRAPHIC] [TIFF OMITTED] T7698.006
    
    [GRAPHIC] [TIFF OMITTED] T7698.007
    
    [GRAPHIC] [TIFF OMITTED] T7698.008
    
    [GRAPHIC] [TIFF OMITTED] T7698.009
    
    [GRAPHIC] [TIFF OMITTED] T7698.010
    
    [GRAPHIC] [TIFF OMITTED] T7698.011
    
    [GRAPHIC] [TIFF OMITTED] T7698.012
    
    [GRAPHIC] [TIFF OMITTED] T7698.013
    
    [GRAPHIC] [TIFF OMITTED] T7698.014
    
    [GRAPHIC] [TIFF OMITTED] T7698.015
    
    [GRAPHIC] [TIFF OMITTED] T7698.016
    
    [GRAPHIC] [TIFF OMITTED] T7698.017
    
    [GRAPHIC] [TIFF OMITTED] T7698.018
    
    [GRAPHIC] [TIFF OMITTED] T7698.019
    
    [GRAPHIC] [TIFF OMITTED] T7698.020
    
    [GRAPHIC] [TIFF OMITTED] T7698.021
    
    [GRAPHIC] [TIFF OMITTED] T7698.022
    
    [GRAPHIC] [TIFF OMITTED] T7698.023
    
    .eps[GRAPHIC] [TIFF OMITTED] T7698.024
    
.eps?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 16, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. How do development activities support disengagement and 
de-radicalization?
    Dr. Brachman. Development efforts are an important, albeit not 
solely sufficient, way to help mitigate the motivating factors that 
tend push individuals toward extremist ideologies. The problem is that 
there is no single trajectory or profile for the kind of people who are 
drawn to violent extremism so, therefore, identifying specific causes 
can be difficult. Many of the individuals who have been implicated in 
plots or attacks within the West in recent years have seemingly been 
motivated out of a cocktail of personal frustration, extreme religio-
political-social beliefs, concern for a population that they perceive 
to be oppressed, a desire for individual glory and a willingness to use 
violence. Development activities can certainly help to reduce the 
potential pool of individuals primed to move down the road of 
radicalization but must be combined with a host of other programs 
addressing other facets of this problem in a synchronized way.
    Mr. Smith. What are the legal constraints that limit U.S. agencies' 
ability to monitor the use of the internet and other media in 
radicalization efforts and ability to implement counter-radicalization 
strategies?
    Dr. Brachman. Unfortunately, I am not qualified to answer that 
question.
    Mr. Smith. What lessons might we draw from the ideological struggle 
with Communism during the Cold War that could inform the current 
struggle with al Qaeda? What lessons can be carried over to this 
conflict, and which ones are not applicable based on changed 
international circumstances?
    Dr. Brachman. During the Cold War, the United States government 
poured resources into building the academic discipline of Sovietology 
at universities around the country. Grant programs were established. 
Cultural, historical and language studies programs were bolstered. Area 
studies became something that was viewed as part and parcel of national 
security. The United States recognized that we needed to try to 
comprehensively understand our adversary, as well as the contexts in 
which it was, and potentially could be, operating. After an initial 
surge of resources and interest from policymakers after the 9/11 
attacks, there has been little sustained attempt to support a broad-
based initiative on par with efforts during the Cold War in order to 
better understand the complexities, factions, personalities, concepts, 
language and other dimensions of violent extremist Jihadi-Salafi 
thought.
    Mr. Smith. What do you believe are the effective tools 
(organizations, programs, etc.) in the U.S. government toolbox in 
countering extremist ideologies? Where should the center of gravity be 
for implementing a counter-radicalization strategy based on al-Libi's 
``unsolicited tips''?
    Dr. Brachman. The goal must be to first clearly identify the 
strategic goal and then develop programs and initiatives that help the 
United States and its partners achieve that goal. In the case of the 
global al-Qaida movement, the United States has a number of interwoven 
interests and objectives. In terms of combating the al-Qaida ideology 
that underlies much of the violence and attempted violence that has 
been seen over the past decade, there are certain types of attributes 
that specific programs must have in order to be successful. They must 
degrade the resonance of al-Qaida's ideology and goals. They must 
bolster the credence and legitimacy of America's ideology and goals. 
These messages must be communicated in a way that 1) recognizes that it 
will have global reach; 2) adopts a consistent media strategy that 
focuses on the needs of strategic cultures rather than policy outcomes 
(Corman, et al., 2008). Programs that allow America to message in a way 
that is perceived as honest, candid and direct about its interests 
(that are not subverted by policy actions on the ground that stand in 
contradistinction to those messages) will have a greater likelihood of 
not being dismissed by target audiences. The center of gravity of Abu 
Yahya's points is that al-Qaida is its own worst nightmare. Neither the 
organization nor the ideology can stand as it offers nothing 
substantive for its follower

to grab on to other than empty revolutionary rhetoric. By exposing the 
gulf between al-Qaida's rhetoric and action while minimizing America's 
gap, the United States will make progress in its effort to shore up its 
global credibility while degrading the resonance of the global al-Qaida 
movement.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
